CERTIFICATE OF SERVICE
NO. TBD
Michael Konowicz a/k/a Michael Phillips and Isarithm, LLC
Petitioners,
v.
Jonathan P. Carr, Severe NJ, Weather, LLC, and Weather NJ, LLC
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MICHAEL
KONOWICZ A/K/A MICHAEL PHILLIPS AND ISARITHM, LLC PETITION FOR WRIT OF CERTIORARI, by
mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid for delivery to the
following address.
Thomas Kane, Esq.
Epstein Becker and Green, P.C.
150 College Road West
Suite 301
Princeton, NJ 08540
(609) 455-1542
tkane@ebglaw.com
Counsel for Jonathan P. Carr, Severe NJ,
Weather, LLC, and Weather NJ, LLC

Lucas DeDeus

May 5, 2021
SCP Tracking: Bochetto, Esq.-1524 Locust Street-Cover White

